                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM




In Fall 2001, we received an allegation that an assistant professor of i                 'the
Subject1)incorporated text from another scientist's successful proposal into his own proposal.
We referred the matter to the Subject's university, who investigated and found that he committed
plagiarism constituting misconduct in science. The university Provost decided that the
seriousness of the matter warranted termination, and placed the Subject on a one-year
nonrenewable contract. Our further investigation uncovered plagiarism in four other NSF
proposals as well as the Subject's doctoral dissertation, demonstrating a substantial pattern of
plagiarism warranting debarment. To protect the interests of NSF and the Federal government,
we recommended that the Subject be debarred for three years and excluded fiom serving as an
NSF reviewer, advisor, or consultant for a period of five years.

The Subject completed his teaching contract in Spring       dnd took a faculty position outside
                   NSF and the Subject subsequently entered into a settlement agreement under
which the Subject voluntarily excludes himself fiom receiving U.S. Federal assistance and
benefits for a period of 18 months beginning on August 13,2003, and is prohibited fiom serving
as an NSF peer reviewer or panelist during that period. The Subject also agreed to complete a
two-week training session on citation methods and practices for scientific papers.

Our investigation report, NSF7ssettlement agreement, and this memo constitute the closeout for     111
this investigation.
National Science Foundation
Office of Inspector General




        Con.idential
     Investigation Report
   Case Nwnber A01110037

       March 7,2003


                            CONFIDENTIAL
                        NSF OIG FORM 22B (1103)
                                                       Summary

    The Office of Inspector General (OIG) has concluded that the subject' plagiarized materials
    into proposals he submitted to the National Science Foundation (NSF). The Subject's
    university investigated an allegation of plagiarism in one NSF proposal, found that the
    Subject committed plagiarism and therefore misconduct in science, and placed him on a one-
    year terminal employment contract. Our additional investigation revealed an extensive
    pattern of plagiarism, beginning with the Subject's       doctoral dissertation and extending
    to multiple NSF proposals.

    We recommend that NSF take the following actions as a final disposition in this case:

         1. NSF should issue a letter of reprimand informing the Subject that NSF has made a
            finding of misconduct in science against him.

         2. NSF should prohibit the Subject fiom serving as an NSF reviewer, advisor, or
            consultant for a period of five years.

         3. NSF should debar the Subject from participation in Federal programs for a period of
            three years.

                                                    OIG's Inquiry
                                                                                     ?
    On November 5,2001, we received an allegation that the Subject's                   proposal3 was
    plagiarized from a successful             9roposa14 submitted by a Principal Investigator (PI)
    at another institution. We compared the two proposals and found approximately 90 lines of
    identical and/or substantially similar text. We also identified other sources of unattributed
    text in the proposal. Altogether, we identified approximately 200 lines of unattributed text
    taken from thirteen different sources. The Subject's -          :proposal and alleged source
    documents, with identical text highlighted and cross-referenced, are at Tab 1, Attachment 8.

    On November 29,2001, we sent the Subject excerpts from these documents and asked him to
    respond to six questions about his treatment of sources5. The Subject responded by e-mail on
    December 7, 20016. In his response, the Subject acknowledges that he copied material written
    by others. With respect to the alleged source proposal, the Subject states: "I was appalled
    when I received your letter to see how much of [the PI'S] language I actually used. This was a

    I
                                Assistant Professor, Department of                  University
    *c                                                       is NSF's premier funding opportunity for




1

      Our inquiry materials are included in the Report of the Scholarly Misconduct Committee, at Tab 1. Our letter
    to the Subject is at Tab 1, Attachment 4.
    6
      The Subject's response to our inquiry letter is at Tab I,, Attachment 4. We note that the Subject did not divulge
    the identity of the person who gave him a copy of                                      We addressed this issue as
    a separate matter.
                                                                                                                      1
serious error in j~dgment."~   With respect to the other material, the Subject writes: "In most
cases, I placed a citation to the source of the language in question in close proximity to the
language itself.. . I thought that using the language was acceptable as long as I cited the
source. I realize that the only proper action was either to explicitly quote the borrowed text or
to rewrite it in my own words."'

Based on the evidence and the Subject's response to our inquiry letter, we concluded that the
allegation of plagiarism was substantive. On December 20,2001, we formally referred
investigation of this case to the Subject's university9.

                                           The University's Actions

Following university policy, the Vice-Provost for Research conducted an inquiry into the
allegations to determine whether a university investigation was warranted. As a result of the
inquiry, the Vice-Provost concluded that an investigation'was warranted and so notified the
Subject by letter dated February 19, 20021°.

The university appointed an eight-member committee to investigate the allegation of
plagiarism. On August 9,2002, we received the Committee's report1l. In summary, the report
stated:

         "The Committee found this occurrence to be plagiarism proven by a preponderance of
         the evidence. Additionally, the Committee found [the Subjectl's actions to be
         intentional. Finally, the Committee found [the Subjectl's actions to be a serious
         deviation from accepted academic practices and thus misconduct in science under
         NSF's definition."I2

The Committee recommended that the Subject "be given a one year terminal contract with
the university's option of extending it to two years provided [he] acknowledges, and       -
apologizes for, his actions in writing to the authors of the source materials and NSF, and that
he enroll in, and complete, a course in scientific ethics."13

On September 7,2002, we received the Provost's adjudication14.The Provost accepted the
Committee's report but decided that the seriousness of the matter warranted stronger action
than that recommended by the committee. The Provost informed the Subject that he was
placed on a one-year non-renewable contract, and that he would not be retained beyond
academic year 2002-2003.




'Tab 1, Attachment 4, p. 5.
* Tab 1, Attachment 4, pp. 5-6.
   Our referral letter is at Tab 1, Attachment 2.
lo  University's letter notifying the Subject of initiation of investigation is at Tab 1, Attachment 5.
" The Scholarly Misconduct'Committee Report is at Tab 1.
    Tab 1, Attachment 1, p. 4.
I 3 . ~ a1,b Attachment 1, p. 4.
l 4 The Provost's adjudication is at Tab 2.
                       OIG's Assessment of the University's Investigation Report

    NSF's misconduct regulation, 45 C.F.R. part 689, was revised in 2002. The conduct under
    investigation occurred before April 17,2002, the effective date of NSF's revised regulation.
    Accordingly, the Committee applied and we apply the definition of "misconduct in science"
    from the version of NSF's regulation in effect when the conduct occurred (2001), while
    following the procedures of the revised regulation.

    NSF7smisconduct regulation states that "After receiving a report from an external
    investigation by an awardee institution or another Federal agency, OIG will assess the
    accuracy and completeness of the report and whether the investigating entity followed
    reasonable procedures. It will either recommend adoption of the findings in whole or in part
    or, normally within 30 days, initiate a new investigation" (45 C.F.R. §689.9(a) (2002)). We
    believe that the Committee's investigation report is accurate, and that the investigating entity
    followed reasonable procedures.

    The definition of misconduct in science includes "plagiarism, or other serious deviation from
    accepted practices in proposing, carrying out, or reporting results from activities funded by
    NSF" (45 C.F.R. §689.1(a)(l) (2001)). A finding of misconduct requires that (1) there be a
    significant departure from accepted practices of the relevant research community, that (2) the
    misconduct be committed intentionally, or knowingly, or recklessly, and that (3) the
    allegation be proved by a preponderance of the evidence (45 C.F.R. §689.2(c) (2002)). We
    agree with the Committee that the Subject's plagiarism is a serious deviation from accepted
    academic practice and therefore constitutes a significant departure from accepted practices in
'
    the Subject's research community. The evidence supports the Committee's conclusion that
    the acts of plagiarism in the Subject's proposal were intentional.

    In deciding what final actions to recommend to be taken by NSF management, we also need
    to assess whether the misconduct was an isolated event or part of a pattern (45 C.F.R.
    §689.3(b)(3) (2002)). However, the Committee did not determine whether the misconduct
    was an isolated incident or part of a pattern. The Committee stated: "[The Subject] has told
    the Committee that this is a unique incident. Given the information at its disposal the
    Committee could not definitively answer this question or confirm [his] response."i5

    We concluded that the Committee's repoh was incomplete for NSF's purposes and that
    additional investigation was required. On September 12,2002, we invited the Subject to
    comment on the Committee's report and notified him of the initiation of our investigationi6.

                            The Subject's Response to the Committee's Report

    On October 25,2002, the Subject responded through his lawyer17.The Subject does not
    contest the Committee's finding that he plagiarized material from a successful NSF proposal
    and that he incorporated material from other sources into his 2001           proposal


    l5Tab 1, Attachment 1, p. 4.
    16
      Our letter informing the Subject of the initiation of our additional investigation is at Tab 3.
    " Letter from the Subject's lawyer is at Tab 4.
                                                                                                        3
without proper attribution and distinction. According to the letter, the Subject "was not aware
of the attribution standards which applied to the presentation of a propos'alto the NSF."'~

The Subject's 2001             proposal (henceforth referred to as Proposal-6) was one of
eight NSF proposals to which he contributed; in Exhibit C of the letter, the Subject reviews
each of the seven other proposals, including two on which he was a co-PI (henceforth
Proposal-1 and ~ro~osal-220)    and five on which he was the sole PI (henceforth Proposal-
321,~ r o ~ o s a l -~ro~osal-5",
                     4~~,       ~ro~osal-7~',  and Proposal-8"). With the exception of
Proposal-8, the Subject indicates that these documents represent his own work.

Specifically, the letter states that the Subject "has reviewed the portions [of Proposals 1-21
that he drafted. Based upon his review, he believes that the content of the portions that he
drafted to be entirely his own and that he has furnished attribution of source materials which
were not his original works of authorship."26For Proposals 3-5, the Subject "believes that the
content of the proposal is entirely his own and that he furnished attribution of source
materials which were not his original works of authorship."27 Proposal-7 is a duplicate of
Proposal-4. Concerning Proposal-8, the Subject "withdrew the Proposal because he was
made aware of the problems outlined in [OIG's] Inquiry Letter. The presentation style and
format of the referenced Proposal is very similar to the proposal which is the subject of the
investigation [i.e. ~ r o ~ o s a l - 6 ] . " ~ ~

                                    OIG'S Investigation

To determine whether the Subject's misconduct was an isolated event or part of a pattern, we
reviewed documents for which the Subject claimed authorship. Specifically, we reviewed the
Subject's doctoral dissertation, the two proposals to which he contributed as co-PI (Proposal-
1 and Proposal-2), his first sole-PI proposal (Proposal-3), and his most recent proposal
(Proposal-8). As summarized below, in each of these documents we found text taken from
other sources without.citationand distinction. We conc1,udethat the Subject's misconduct
was not an isolated event, but rather was part of a long-standing pattern of plagiarism.

Dissertation. We found that the Subject's 1995 doctoral di~sertation~~contains a significant
amount of unattributed text taken from textbooks and published articles. The Subject's


'' Tab 4, p. 5.
$-




26 Tab 4, p. 21.
27 Tab 4, pp. 21-22.
-- Tab 4, p. 23.
I    . I
dissertation and alleged source documents, with identical text highlighted and cross-
referenced, are at Tab 6.

 Proposal-1. The Subject is listed as a co-PI on this 1998 proposal. When we asked the
 Subject to clarify which parts of the proposal he drafted, he identified four sentences of the
 Project Description as his "contribution to the authorship of the ~ r o ~ o s a l [ ]These
                                                                                       ' ~ ~ . four
 sentences lie within a 20-line section that describes the Subject's proposed research project.
 We believe that the Subject wrote these four sentences, but we believe he also contributed the
 rest of his section, which is copied verbatim fiom the report of a 1997 NSF workshop. This
 conclusion is supported by the fact that text fiom this workshop report also appears without
,attribution or distinction in the Subject's Proposal3 and ~ro~osal-631.   Proposal-1 and the
 alleged source document, with identical text highlighted and cross-referenced, are at Tab 7.

Proposal-2. This proposal, submitted two months after Proposal-1, is a resubmission with
minor revisions. Revisions to the Subject's section indicate that he had an opportunity to
rewrite his section and address the treatment of sources. ~ o w e i e rhe
                                                                       , made no changes to the
allegedly copied text. Proposal-:! and the alleged source document, with identical text
highlighted and cross-referenced, are at Tab 8.

Proposal-3. This July 2000              proposal was the first of six proposals submitted by
the Subject as sole PI. We identified at least seven sources from which text was taken
without attribution and distinction, including a textbook, webpages, published articles by
other researchers, and the Summary section of another PI'S successful            , proposal32.
Proposal3 and the alleged source documents, with identical text highlighted and cross-
referenced, are at Tab 9.

Proposal-8. This 2001 proposal was submitted to the F
                                            Our analysis indicates that it was created using text
from (i)~ro~osal-2,   ~ro~osal-3, hoposal-5, and Proposal-6; (2) a published article co-
authored by the Subject and two other researchers; and (3)                                      a




submitted by a member of the Subject's department. The material fiom the Subject's
previous proposals includes plagiarized text: for example, the Subject has included text from
his 2001             proposal, submitted two months before, that was plagiarized from another
PI'S successful proposal. The material taken from a colleague's         proposal represents
additional uncited text. In Proposal-8, the Subject was drawn once again to the apt phrases of
another PI's educational plan as he incorporated material fiom both a successful
proposal and a competing         proposal. Proposal-8 and the alleged source documents, with
identical text highlighted and cross-referenced, are at Tab 14.



3 0 ~ a11,p.
        b    1.
31 For theNSF workshop report as used in Proposal-3, see Tab 9, Attachment F; for Proposald, see Tab 1,
-
Attachment 8 F.
Analysis of the above documents provided sufficient evidence to address the issue of pattern.
Accordingly, we concluded our investigation without analyzing Proposal-4 and Proposal-5.
Proposal-6 was the focus of our initial inquiry and the university's investigation. Proposal-7
is a duplicate of Proposal-4.
                                      OIG's Assessment

In deciding what final actions are appropriate when misconduct is found, NSF officials
should consider: (1) How serious the misconduct was; (2) the degree to which the misconduct
was knowing, intentional, or reckless; (3) whether it was an isolated event or part of a
pattern; (4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances (45 C.F.R.
$689.3(b) (2002)).

Seriousness o f the Subiect 's Actions

In his 2001            proposal (Proposal-6)' the Subject presented a significant amount of
                                                                                                             '




text written by others as his own work. Over 200 lines of text in this proposal34were
appropriated without attribution and distinction fiom the work of others. We believe this
constitutes very serious misconduct.

The Subiect 's Intent

The Subject's university concluded that he intentionally copied material from sources into his
2001            proposal without attribution and distinction. In particular, the Committee
concluded that the Subject copied text from a successful             proposal by another PI "to
improve the funding potential of the proposal he submitted to NSF, knowing that this
material was not in the public domain."35

The Subject's response to the Committee's report states that "he was not aware of the
attribution standards which applied to the presentation of a proposal to the NSF."~~ However,
the Subject does not claim he thought it acceptable to commit plagiarism in a grant proposal.
We believe that the Subject knew that he was committing plagiarism as he sat at his computer
and typed in over 200 lines of material from multiple sources. In particular, we believe that
the Subject knew he was plagiarizing as he studied the successful             proposal
submitted by another PI and selected over 90 lines for incorporation into his own proposal.

We believe that the Subject is well aware of standards for the proper treatment of sources.
The Grant Proposal Guide clearly articulates NSF's expectations in a statement which has
changed little since 1998, when the first of the Subject's eight proposals was submitted:

        NSF expects strict adherence to the rules of proper scholarship and attribution. The
        responsibility for proper attribution and citation rests with authors of a research
        proposal; all parts of the proposal should be prepared with equal care for this concern.

34
   Proposal-6 contains approximately 575 lines of text in the Project Summary and the Project Description.
35 Tab 1, Attachment 1, p. 3.
36 Tab 4, p. 5 .
        Serious failure to adhere to such standards can result in findings of misconduct in
        science. NSF policies and rules on Misconduct in Science and Engineering are
        discussed in GPM Section 930.~'

The Subject's knowledge of attribution standards is further indicated by his curriculum vitae,
which states that he has served as associate editor for the transactions of a professional
society, guest editor for special issues of journals, co-chair for numerous professional society
workshops, and member of many program committees. The Subject has also co-authored
numerous papers in conference proceedings, journals, and edited volumes. The Subject is an
active member of the Association for               -           -.
professional societies that have codes of ethics. In particular, 1
                       ?' states, under
        As an       member I will ...
        1.6 Give proper credit for intellectual property
        Computing professionals are obligated to protect the integrity of intellectual property.
        Specifically, one must not take credit for others' ideas or work, even in cases where
        the work has not been explicitly protected by copyright, patent, e t ~ . ~ ~

We believe that the Subject intentionally typed in over 200 lines of material from multiple
sources into his 2001             proposal and presented it as his own work in order to create a
false impression of his abilities as a writer, a researcher and an educator, and to thereby
deceive NSF reviewers.

Finally, we believe that the Subject also intended to deceive NSF by concealing the extent of
his plagiarism. In our initial inquiry, we asked the Subject twice about his use of sources in
other NSF proposals; he did not answer this question. In the course of the university's
investigation, the Subject indicated that the plagiarism in his 2001 C         .proposal
represented a unique incident. In the Subject's detailed review of his other NSF proposals, he
stated that proposal contents are his and that he attributed source materials. Our subsequent
investigation showed otherwise.

The Subject's Actions as an Isolated Event or Part ofa Pattern

The Committee stated that the Subject "has told the Committee that this is a unique incident.
Given the information at its disposal the Committee could not definitively answer this
question or confirm [his] response.'A0 Our subsequent investigation showed that the Subject
has engaged in repeated acts of plagiarism, as evidenced in his doctoral dissertation and his
IVSF proposals.

                                 OIGYsRecommended Disposition



" NSF   98-2, Grant Proposal Guide, p. 1.
38 The ACM Code of Ethics is attached at Tab 5.
39
   Tab 5, pp. 2-4.
40 Tab 1, Attachment 1, p. 4.
We recommend that NSF take the following actions as a final disposition in this case:

     1. NSF should issue a letter of reprimand informing the Subject that NSF has made a
         finding of misconduct in science against him4'.

     2. NSF should prohibit the Subject fiom serving as an NSF reviewer, advisor, or
        consultant for a period of five years42.

     3. NSF should debar the Subject from participation in Federal programs for a period of
        three years43.

We believe that this case calls for Group ID actions, including debarment. First, we note that
the Subject plagiarized material from other NSF proposals and presented it as his own work,
thereby demonstrating his unfitness to serve as a reviewer of confidential NSF proposals.
Moreover, his repeated acts of plagiarism show a level of contempt for ethical standards that
makes him unfit to serve NSF in any capacity. For these reasons, we recommend that the
Subject be prohibited from serving as an NSF reviewer, advisor, or consultant for a period of
five years.

Second, we note that the Subject's employment contract ends in Spring 2003. The Subject
may again seek to secure Federal funding after moving to another university or to the private
sector. A requirement for certifications and assurances with respect to proposals submitted
through hture employers would not be effective, since the Subject appears unable to
distinguish his work fiom the work of others. Any certification that his proposals contain no
plagiarized materials may be meaningless. Finally, the Subject may decide to seek funding
from Federal agencies that do not use NSFYsmethod of peer review by subject-matter
experts. The Subject's extensive history of plagiarism constitutes a risk to the Government.
For these reasons, we recommend that the Subject be debarred from participation in Federal
programs for a period of three years.

The Subject's Response to Our Draft Report

We sent the Subject a draft of thisreport on February 11,2003. In a letter dated February 27,
the Subject responded that in order to expedik theprocess, he would not provide comments
at this time.




4' A letter o f reprimand to the individual is a Group I action (45 C.F.R. §689.3(a)(l)).
42 Prohibiting participation of an individual as an NSF reviewer, advisor, or consultant for a specified period is a
Group I11 action (45 C.F.R. §689.3(a)(3)).
43 Debarment of an individual is a Group 111 action (45 C.F.R. §689.3(a)(3)).

                                                                                                                  8
                            SETTLEMENT AGREEMENT

This Agreement is voluntarily entered into betweel
              and the National Science Foundation ("NSF") for the purpose of fullY
resolving NSF'S misconduct in science allegation and any related debarment proceeding
against-T

                                       RECITALS

A. The National Science Foundation's (NSF) Office of the Inspector General (OIG)
issued an investigative report (OIG Case #A01 110037) on March 7,2003 in which it
recommended that NSF: (1) issue a finding of misconduct in science against
            for plagiarizing materials into proposals that he submitted to the National
Science Foundation; (2) debar _                 for three years; and (3) prohibit -
            from serving as a NSF peer reviewer for five years.

B. The administrative record establishes that the University                 investigated
the allegations of misconduct ag-                     a d concluded that he committed
misconduct in science by plagiarizing materials in his NSF proposals.

C.                was initially notified of the allegations of misconduct by NSF's OIG
on approximately November 29,200 1. Since that date                    has not applied for
any Federal funding for his research.

D.                  voluntarily waives any right that he has to a fact-finding hearing on
disputed material issues of fact pertinent to a debarment proceeding and consents to the
terms set forth below.

THE UNDERSIGNED PARTIES HEREBY AGREE AS FOLLOWS:
     -
1.                  roluntarily excludes himself fiom receiving federal financial and non-
financial assistance and benefits under Federal non-procurement and procurement
programs and activities until eighteen months fiom the effective date of this Agreement.
This period is in addition to the period of time from November 29,2001, in which he
refrained from applying for Federal funding. During the eighteen-month voluntary
exclusionary period,                  will not receive any funds fkom, or serve as a
principal investigator, co-principal investigator, nor have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract,
or cooperative agreement with any agency of the Executive Branch of the Federal
Government. NSF will instruct the General Services Administration to add
              name to the GSA Government-wide list of excluded individuals (ELS)for
the eighteen-month exclusionary period.
     -   -   -
2.                 will complete a two-week training session at the University
     3 in which he will study appropriate citation methods and practices for scientific
papers, including proposals for Federal fUnding and articles published in scientific
journals.

3.               , is prohibited fkom serving as an NSF peer reviewer or panelist during

the eighteen-month exclusionary period.

4. NSF agrees that it will not pursue M e r misconduct in science proceedings against
               based upon OIG's Investigation Report in Case #MA01 1 10037. NSF will
not make any referrals to the Department of Justice or State prosecutorial authorities
based upon the OIG Investigation Report Case #A01 110037. Disclosure of any records
or information by the NSF fiom the NSF case file in this disbarment proceeding will be
consistent with the Privacy Act of 1974 and the Privacy Act System Notice NSF-55,
"Debarment/Scientific Misonduct Files".

5. This agreement does not constitute an admission of guilt, fault, or wrongdoing by
either party.

6. This agreement constitutes the entire agreement between the parties regarding the
above described matter. No modification to this Agreement shall be valid unless written
and executed by both parties thereto.

7. This agreement terminates and settles this matter, and no party may bring legal action
regarding this matter except concerning breach of this agreement.

8.   '             has had the opportunity to discuss this settlement agreement with his
attorney and fully understands it terms.

9, Tlds Agreement is effective on the date signed by NSF's Office of General Counsel.

10. This Agreement will be null and void if not executed by NSF's Office of General
Counsel within ten calendar days after the signing of the ~greementby
and his attorney.
Anita Eisenstadt
Assistant General Counsel
National Science Foundation
